No. 20-637
IN THE

DARRELL HEMPHILL,

Petitioner,

v.
STATE OF NEW YORK,
Respondent.
On Writ of Certiorari to the
Court of Appeals of New York
MOTION FOR LEAVE TO FILE BRIEF AS
AMICUS CURIAE AND AMICUS
BRIEF OF ADAM OUSTATCHER
IN SUPPORT OF RESPONDENT

Adam Oustatcher, Esq.
55 Broadway
Suite 202
New York, New York 10006
(917) 881-9307
aoustatcher@gmail.com
Date: August 16, 2021

1

MOTION FOR LEAVE TO FILE BRIEF AS
AMICUS CURIAE

Pursuant to Supreme Court Rule 37.2(b), Adam
Oustatcher, the former prosecutor who tried petitioner
for the murder of David Pacheco, Jr., respectfully
moves the Court for leave to file the accompanying
brief as amicus curiae at the request of Joanna
Sanabria, the mother of David Pacheco, Jr.
The consent of petitioner has been obtained.
Respondent withheld consent by email dated June 24,
2021, which stated: “On behalf of this Office, I write to
inform you that we do not consent to your request to
submit an amicus brief.” Bronx County District
Attorney Darcel Clark and her office, who consented to
eight amicus briefs submitted on behalf of petitioner,
provided no explanation in their email as to why they
wish to deny Ms. Sanabria’s request that the trial
attorney who successfully prosecuted petitioner
submit an amicus brief in the instant matter. In a July
6, 2021 teleconference, Assistant District Attorney
Gina Mignola indicated that respondent withheld its
consent because New York’s Rules of Professional
Conduct Rule 1.11(a)(2) provides that a former
government lawyer may not represent a client in
connection with a matter in which the lawyer
participated personally and substantially when
employed by the government. After amicus informed
respondent that Rule 1.11(a)(2) is inapplicable because
no attorney-client relationship exists between amicus
and Ms. Sanabria, respondent continued to withhold

2

its consent without further explanation.
As one of the attorneys involved in petitioner’s
trial and as demonstrated by the accompanying amicus
brief, amicus is familiar with evidence not presented to
the Court by petitioner or respondent and raises
material legal issues the parties failed to address
bearing upon the issue at bar. As to the former, the
Joint Appendix and briefs submitted by the parties
omit extensive and significant portions of petitioner’s
trial to such a degree as to not provide a fair and
accurate record of the underlying proceedings.
Regarding the latter, the parties to the appeal do not
address the threshold issue of whether the statement
at issue constitutes evidence against petitioner within
the meaning of the Sixth Amendment, do not apply the
primary purpose test, and do not address the doctrine
of forfeiture by wrongdoing. Amicus thus submits that
the accompanying amicus brief can offer a helpful and
valuable perspective distinct from both petitioner and
respondent. For these reasons, amicus seeks leave of
the Court to file the accompanying brief as amicus
curiae.
Respectfully submitted,
Adam Oustatcher
55 Broadway
Suite 202
New York, New York 10006
(917) 881-9307
aoustatcher@gmail.com
Amicus Curiae
Dated: August 16, 2021

i

TABLE OF CONTENTS
Page
INTEREST OF AMICUS CURIAE ............................... 1
SUMMARY OF ARGUMENT ....................................... 2
STATEMENT OF FACTS ............................................. 3
ARGUMENT ................................................................ 18
I.

MORRIS IS NOT A WITNESS AGAINST
PETITIONER WITHIN THE MEANING OF
THE SIXTH AMENDMENT .............................. 18

II. MORRIS’ ALLOCUTION IS NOT
TESTIMONIAL WITHIN THE MEANING
OF THE CONFRONTATION CLAUSE ............ 20
III. MORRIS’ ALLOCUTION WAS PROPERLY
RECEIVED IN EVIDENCE EVEN IF
DETERMINED TO BE TESTIMONIAL ........... 26
IV. THE ADMISSION OF MORRIS’
ALLOCUTION INTO EVIDENCE DID NOT
AFFECT PETITIONER’S ABILITY TO
PRESENT A DEFENSE OR THE
OUTCOME OF THE TRIAL .............................. 31
CONCLUSION ............................................................ 33

ii

TABLE OF AUTHORITIES
Page(s)
Cases
Brady v. Maryland,
37 U.S. 83 (1963) ....................................................10
Chapman v. California,
386 U.S. 18 (1967) ..................................................33
Crawford v. Washington,
541 U.S. 36 (2003) .......................................... passim
Davis v. Washington,
547 U.S. 813 (2006) ........................................ passim
Delaware v. Van Arsdall,
475 U.S. 673 (1986) ................................................33
Giles v. California,
554 U.S. 353 (1993) .............................. 18, 27, 30, 31
Kirby v. United States,
174 U.S. 47 (1899) ..................................................21
Lord Morley’s Case,
(6 State Trials, 770) ...............................................26
Michigan v. Bryant,
562 U.S. 344 (2011) ....................................19, 22, 23
Ohio v. Clark,
675 U.S. 237 (2015) ..........................................19, 22
Ohio v. Roberts,
488 U.S. 56 (1980) ..................................................18
People v. Lopez,
71 N.Y.2d 662 (1988)..............................................23
People v. Serrano,
15 N.Y.2d 304 (1965)..............................................23
Reynolds v. United States,
98 U.S. 145 (1879) ..................................................26
Tehan v. U.S. ex rel. Shott,
382 U.S. 406 (1966) ................................................32

iii

The King v. Macdaniel and Others,
(1 Leach 44, 168 Eng. Rep. 124 (P.C. 1754)) .........27
United States v. Aguilar,
295 F.3d 1018 (C.A.9 2002)....................................20
United States v. Centracchio,
265 F.3d 518 (C.A.7 2001) .....................................21
United States v. Dolah,
245 F.3d 98 (C.A.2 2001) .......................................21
United States v. Moskowitz,
215 F.3d 265 (C.A.2 2000) .....................................21
United States v. Newton,
326 F.3d 253 (1st Cir. 2003) ....................................21
United States v. Petrillo,
237 F.3d 119 (C.A.2 2000) .....................................21
Williams v. Illinois,
567 U.S. 50 (2012) ............................................20, 22
Other Authorities
1 Britton 34-35 (Nichols ed. 1865)..........................27
Exodus 20:16 ...........................................................27
John C. Hogan, Murder by Perjury, 30 Fordham
L. Rev. 285 (1961) ...................................................27
Joseph Cox, A Faithful Narrative of the Most
Wicked and Inhuman Transactions of That
Bloody-Minded Gang of Thief-Takers,
Macdaniel, Berry, Salmon, Eagan, Alias
Gahagan: As Also of That Notorious
Accomplice of Theirs, Mary Jones (1756) ...............28
Old Bailey Proceedings Online
(www.oldbaileyonline.org, version 8.0, 16
August 2021), June 1756, trial of Stephen
Macdaniel John Berry Mary Jones ........................28
Rules
Rule 11(b)(3) ............................................................23

IN THE

No. 20-637
DARRELL HEMPHILL,
Petitioner,
v.
STATE OF NEW YORK,
Respondent.
On Writ of Certiorari to the
Court of Appeals of New York
BRIEF OF ADAM OUSTATCHER AS
AMICUS CURIAE IN SUPPORT
RESPONDENT

INTEREST OF AMICUS CURIAE 1
Amicus tried petitioner for the murder of David
Pacheco, Jr., on behalf of the State of New York.
Amicus’ interest is to provide a fair and accurate
account of the underlying proceedings to allow a fully
informed decision thereon. Joanne Sanabria, the
Pursuant to S. Ct. Rule 37.6, counsel for petitioner
consented to the filing of this brief, respondent did not. No
counsel for a party authored this brief in whole or in part
and no person or entity other than amicus made a
monetary contribution to its preparation or submission.

1

2

mother of David Pacheco, Jr., requested that amicus
submit this brief. No attorney-client relationship
exists between amicus and Ms. Sanabria.
Amicus was fourth prosecutor assigned to the
investigation into the death of David Pacheco, Jr. The
first prosecutor handled the case from the arrest of
Morris through the abbreviated trial of Morris, which
ended in a mistrial on consent of all parties to allow a
reinvestigation of the murder. The second prosecutor,
who undertook the start of the reinvestigation, died
suddenly and unexpectedly. The third prosecutor was
unable to dedicate the time the reinvestigation
required. Amicus asked to assume responsibility for
the reinvestigation into the death of David Pacheco,
Jr., in the winter of 2012 with no prior knowledge of
the case, whereupon amicus conducted the
reinvestigation, presented evidence to the grand jury,
and prosecuted the trial of petitioner.
SUMMARY OF ARGUMENT
The issue presented by the case at bar is
whether the introduction into evidence of the plea
allocution of an unavailable individual that does not
implicate petitioner in the crime with which petitioner
was charged to cure the taint of a misleading
statement petitioner’s counsel made to the jury after
petitioner undertook a campaign to frame the
unavailable individual for murder and engaged in in a
pattern of misconduct meant to undermine the
integrity of the subject proceedings violates the Sixth
Amendment. Amicus submits that it does not.
Nicholas Morris was initially charged with the

3

murder of David Pacheco, Jr.
DNA evidence
exculpated Morris. Morris subsequently pled guilty to
possessing a firearm unconnected to the murder.
Petitioner was not charged with murder at the time of
Morris’ plea and Morris did not mention or otherwise
implicate petitioner in the commission of a crime in his
allocution. Because Morris’ allocution did not offer
evidence against petitioner and the primary purpose of
Morris’ allocution did not relate to the prosecution of
petitioner, Morris’ allocution does not implicate
petitioner’s Sixth Amendment rights.
Petitioner initiated a conspiracy to frame Morris
for the homicide within days of the murder. After
Morris was exculpated and petitioner was charged
with the murder, petitioner engaged in campaign to
undermine the integrity of his trial, inclusive of
witness intimidation and attempting to perpetrate a
fraud on the court. To mitigate prejudice resulting
from one of petitioner’s attorney’s misleading
statements to the jury, Morris’ allocution was admitted
into evidence.
The issue presented is, first, whether Morris’
allocution implicates the Confrontation Clause and, if
it does, whether petitioner’s misconduct allows the
introduction of Morris’ allocution into evidence.
STATEMENT OF FACTS
April 16, 2006 was Easter Sunday (55-56) 2.
Denise Santiago, Brenda Gonzalez, Jon Vargas, Jose
Page citations are to petitioner’s trial transcript unless
otherwise noted.

2

4

Castro, and Juan Garcia were walking to Castro’s
apartment in a building located on the southwest
corner of the intersection of Harrison Avenue and
Tremont Avenue in the Bronx after doing some early
morning shopping (257, 441, 803-04, 875-76). A tall,
thin, African American man wearing a blue sweater
and a baseball hat pulled low on his forehead - a
stranger to the group - was standing in the street on
Harrison Avenue talking on a cell phone (443, 839,
874). The sweater stood out: it was a bright shade of
blue with a distinctive fabric pattern (442-45, 809-10,
840, 877-80, 1160, 1081, 1092). It is uncertain what
sparked the animosity, but a fistfight ensued with
another man, Ronell Gilliam, joining in on behalf of the
man in the blue sweater (257-60, 441-42, 803-05, 80810, 839-40, 875, 985-87).
The stranger’s blue sweater was pulled down in
the tumult, revealing a tattoo on his right arm (270-71,
420-22, 808, 862-63, 988-89). The man in the blue
sweater, losing the fistfight, ran away (881). Vargas
chased after him (881). The fighting stopped (888,
978). Gilliam, Castro, Garcia, Santiago, and Gonzalez
walked in the direction that the man in the blue
sweater and Vargas ran, cursing at and threatening
each other (888, 977-78, 994-95).
Gilliam,
outnumbered and feeling that the fistfight might
resume, placed a telephone call to his friend Morris
requesting help (978, 995).
Vargas returned to his friends having failed to
catch the man in the blue sweater and the argument
stopped (881). Vargas felt faint and sat on a milk crate
near the entrance to Castro’s apartment building in
the company of Castro, Santiago, and Gonzalez, while

5

Garcia walked across the intersection to buy Vargas a
bottle of water (265-66, 450, 812-13, 843, 882-84, 882).
Gilliam stood outside the apartment building where he
lived on Harrison Avenue, two buildings north of the
intersection (979).
A car pulled up in front of Gilliam and the man
in the blue sweater exited the vehicle (267, 272, 29293, 451, 457-78, 812-15, 843-44, 882-84). The man in
the blue sweater asked Gilliam where the other group
was situated (978-79, 996-98). Gilliam pointed down
Harrison Avenue, adding that the argument was
quashed (978-79, 996-98, 1157). The man in the blue
sweater pulled out a gun, pointed it in the direction of
Garcia, who was crossing the street, and fired multiple
gunshots as Garcia ran through the intersection,
directly in front of a minivan, in the direction of his
friends (978-79, 996-98).
That minivan was driven by Joanne Sanabria.
Ms. Sanabria, entirely unaware of the above events,
was driving on Tremont Avenue with a car full of
children having just visited family (54-55). Her two
year-old son David was strapped in his car seat directly
behind her (54-57). One of the bullets fired by the man
in the blue sweater penetrated the minivan’s door,
pierced the child’s car seat, then tore through David’s
left lung, spleen and spinal column, killing him (929).
Ballistic evidence recovered from the crime
scene and the slug recovered from the blanket in which
the toddler was swathed at the hospital revealed that
one gun was used in the commission of the murder: a
9mm pistol (101, 156, 182, 220, 1204-05).

6

The police went to the apartment where Gilliam
lived with his grandmother (661-64). Gilliam was not
there, but the police recovered the bright blue sweater
from a closet, noting the strong odor of gunshot (66467). The police went to Morris’ apartment and
recovered three rounds of .357 and one round of 9mm
caliber ammunition (669, 679).
The night of the murder, petitioner, Gilliam,
and petitioner’s girlfriend (and future wife) Aida
Llanos rendezvoused at the home of petitioner’s friend
Vernon Matthews in Brooklyn and, at petitioner’s
suggestion, fled the Bronx, where petitioner had lived
his entire life (984-85, 1002-03). Days later, Matthews
spoke to the police and signed a statement indicating
that, on the night of the murder, he heard petitioner
admit to being the gunman (1243-45).
While Ms. Sanabria and her husband David,
having just buried their child, stood in front of
reporters’ microphones holding David’s favorite doll,
their faces streaked with tears, begging the public for
help in finding their son’s killer (Exhibit 101),
petitioner and Llanos were making a new start of it in
North Carolina, as far away from the police
investigation as possible, with petitioner taking a false
name (“Darrell Davis”) (937-42).
Morris knew the police were looking for him and
walked into a local new station to bring himself into
custody (Exhibit 101, 332-35).
Morris gave an
interview proclaiming his innocence and took off his
shirt, showing that he did not have any tattoos on his
right arm. Morris also had a prominent facial scar
(Exhibit 101). No witness described the gunman as

7

having a facial scar.
Morris was placed in lineups (683). Vargas,
Santiago, and Gonzalez identified him as the shooter
(684-697). Garcia, who was closest to the gunman at
the time of the shooting, viewed the lineup and
indicated that the shooter was not in the lineup (819).
Petitioner paid for Gilliam’s food and hotel in
North Carolina for days and then told Gilliam that
Morris informed the police of his role in the shooting
(1006-08). This was a lie petitioner voiced after finding
out that Matthews revealed to the police that
petitioner confessed to being the gunman (1006).
Petitioner, Gilliam’s older cousin, instructed Gilliam to
return to New York to tell the police “Nick is the
shooter (1008).”
Gilliam was driven back to the Bronx by
petitioner’s friend, where he met George Vomvalakis,
a lawyer petitioner hired to add credence to petitioner’s
efforts to falsely implicate Morris, for a few minutes
before walking into the district attorney’s office to
criminate Morris as the gunman (1009-12).
After leaving the district attorney’s office,
Gilliam found out that Morris did not implicate
petitioner or Gilliam (1013). Days later, Gilliam,
accompanied by one of petitioner’s brothers 3, walked
into the 46th precinct station house unannounced,
purposefully without Vomvalakis, and told the police
Morris, unaware of what was transpiring, called
Hemphill’s brother while Gilliam was in the precinct (1015,
1031).
3

8

the truth: petitioner, not Morris, was the shooter
(1014-15). Vomvalakis found out what Gilliam was
doing and called the precinct to stop Gilliam from
speaking to the police (958).
The next day, Gilliam and Vomvalakis returned
to the district attorney’s office and Gilliam again told
the police and prosecutor that petitioner was the
shooter (1009-12). After identifying petitioner as the
murderer, Gilliam was jailed and charged as an
accomplice to the murder, even though he had no
foreknowledge of petitioner’s intent to kill and tried to
stop the shooting (724-26).
In opening statements at Morris’ trial, Morris’
attorney revealed that a single male DNA profile was
obtained from the blue sweater (Pet. Cert. Appendix
4A, 9A). A mistrial was declared to allow Morris’ DNA
profile to be developed and compared to the DNA
recovered from the blue sweater. Id. Subsequent DNA
testing exonerated Morris, revealing that his DNA was
not on the blue sweater. Id.
Morris pled guilty to possessing a .357 caliber
revolver because, after Gilliam called him on April 16,
2006, Morris was en route armed with a .357 revolver
(1181-85).
Sometime later, Morris was stopped by customs
officials returning to the Bronx after traveling to
Barbados to attend to a family matter and was barred
from re-entering the United States due to his gun
conviction (894-95, Pre-Trial Applications 124, October
2, 2015).

9

Gilliam entered into a cooperation agreement in
November 2010 pursuant to which, if Gilliam testified
truthfully at all future proceedings, he would be
sentenced to five years’ incarceration on his plea to
manslaughter in the first degree (969).
On April 26, 2011, law enforcement officials
traveled to North Carolina and executed a search
warrant, taking a DNA swab from petitioner (524-27).
Subsequent DNA testing and analysis revealed that
petitioner’s DNA matched the DNA profile found on
the blue sweater (567, 572-73).
In the late winter of 2012, amicus assumed
responsibility for the reinvestigation and began
interviewing witnesses who had never been spoken to
previously and re-interviewing previously identified
witnesses. Based upon newfound evidence, a grand
jury charged petitioner with the murder of David
Pacheco, Jr.
29 witnesses were called by the prosecution at
petitioner’s trial.
Michelle Gist, a woman who knew petitioner,
Gilliam, and Morris for years prior to the shooting,
testified that she was parking her car on Harrison
Avenue minutes before the shooting when she saw
petitioner, wearing a bright blue sweater, on the hood
of her car involved in a fistfight (343, 349-52, 379). 4
Petitioner’s appellate counsel submits to the Court that one
witness, that being Gist, said that Morris, “had been at the
scene” with Gilliam (Pet. Merit Brief 5). This does not
accurately reflect Gist’s testimony as she testified that she
saw petitioner and Gilliam involved in the fistfight and

4

10

In a brazen attempt at witness intimidation,
petitioner screamed at Gist in open court to silence her
in the middle of her testimony (352).
Ardell Gilliam, petitioner’s grandmother,
testified against him at trial, recounting for the jury
that she saw petitioner wearing a blue sweater earlier
on the day of the murder (602-03, 611-12).
While Brady v. Maryland, 37 U.S. 83 (1963),
solely requires disclosure of the information provided
by Santiago, Gonzalez, and Vargas, not that the
prosecution call them as trial witnesses, the
prosecution called Santiago, Gonzalez, and Vargas at
trial to ensure that the jury heard all the evidence
against Morris when considering the charges against
petitioner even though, by so doing, the prosecution
forfeited its right to cross-examine Santiago, Gonzalez,
and Vargas. 5
The unreliability of Vargas’, Santiago’s, and
Gonzalez’ identifications of Morris was patently clear
without the need for cross-examination. Vargas,
Gonzalez, and Santiago each admitted that they never
saw the gunman’s face. Vargas, who saw a Daily News
newspaper article about the shooting with a
subsequently saw Morris in the area well after the fistfight
and shooting (354, 375-76).
5 It became unlikely that Santiago, Gonzalez, or Vargas would
voluntarily testify if asked by petitioner’s counsel after
petitioner’s counsel dispatched an investigator who gained
access to Santiago’s home without properly identifying
himself, riffled through her private belongings, and attempted
to take a statement from Santiago after placing his gun on her
coffee table with the barrel of his gun pointing at Santiago.

11

“gentleman on the cover” before viewing the lineup,
only saw the back of the gunman’s head as he ran
away, Santiago’s momentary view of the gunman was
at a considerable distance and his face was blocked by
his hat and the gun, itself, and Gonzalez, who is
severely nearsighted, was not wearing her glasses at
the time of the shooting or when she viewed the lineup.
Santiago further testified that she saw the News 12
broadcast and the man shown in the broadcast
(Morris) was not the shooter (467-69, 487-89, 844-49,
885-88).
Garcia testified that he viewed the lineup
containing Morris and the gunman was not in the
lineup (819).
Castro, who did not view the lineup, testified
that he saw Morris on a television news broadcast the
morning that lineups were conducted and the man
shown in the broadcast (Morris) was not the shooter
(280).
Petitioner’s trial counsel misrepresented
Gonzalez’ grand jury testimony to the jury to give the
false impression that Gonzalez knew Morris by name
at the time of the shooting (479). To correct the taint
resulting from this artifice, the prosecution was
permitted to introduce a portion of Gonzalez’ grand
jury testimony reaffirming that Morris was a stranger
to her (616-17).
Gilliam provided a full account of the day of the
murder, from the fistfight (977-79) to meeting
petitioner, Llanos, Morris, and Gilliam’s brother
William in the lobby of his building before they

12

proceeded to the apartment Gilliam shared with his
grandmother moments after the shooting where it was
decided that Gilliam would dispose of petitioner’s 9mm
pistol and Morris’ .357 revolver (980-81), disposing of
the murder weapon (981, 1042), and then meeting
petitioner and Llanos at Matthews’s home in Brooklyn
before fleeing to North Carolina (984-85, 1003).
Gilliam identified petitioner as the murderer, the man
in the blue sweater (979). Gilliam further testified to
being put up in a hotel by petitioner, then being told by
petitioner that Matthews told the police that petitioner
was the shooter and Morris was speaking to the police
(1006-08). Petitioner instructed Gilliam that he must
therefore return to New York to place blame for the
murder on Morris (1008).
Gilliam’s testimony was corroborated by
independent evidence at every critical juncture: by
Gonzalez, Santiago, Castro, Vargas, and Garcia with
regards to the fistfight, by Milagros Pagan, Justina
Bautista, and Anthony Baez as to the shooting (10791080, 1092, 1159), by Gist, Ardell Gilliam and DNA
evidence as to petitioner’s identity as the man in the
blue sweater, and by Vomvalakis, who testified that
either petitioner or Llanos paid for his representation
of Gilliam, he met Gilliam for mere minutes on the
courthouse steps and provided no legal counsel to
Gilliam before walking Gilliam into the district
attorney’s office and, ultimately, a state prison term
(952-58).
The only affirmative act Vomvalakis
undertook during his representation of Gilliam was to
attempt to stop Gilliam from revealing petitioner’s role

13

in the murder to the police (960). 6 Moreover, Gilliam’s
testimony established that Gilliam did not have a
motive to falsely identify petitioner as the gunman
(987, 1046).
Gilliam took full responsibility for his conduct
and, pursuant to the terms of his cooperation
agreement, was subsequently sentenced to five years’
incarceration for the murder his cousin committed
(969-70).
Baez tried to break up the fistfight in which the
man in the blue sweater was involved and was later
seated in a car near to and with a clear view of the
gunman when he fired the fatal shot. Baez, who
identified Gilliam from a photo array, did not pick
Morris from a six-pack of photographs when asked to
identify the gunman (1161-75). 7
Petitioner’s sister-in-law Elisa Hemphill, after
coming down with an apparent case of trial induced
amnesia, ultimately admitted that petitioner “might”
have had a tattoo on his right arm prior to the shooting
(421-22).
The trial judge directed petitioner to bare his
Vomvalakis claimed to have lost his notes regarding the
work petitioner/Llanos paid him to perform (960).
7 Petitioner’s appellate counsel submits that Baez identified
Morris in the photo array (Pet. Merit Brief 6), even though
Baez testified at trial that he did not: “I was hoping to
remember most of the guy’s face, but, again, I told the police
officer at that moment that I cannot remember his face. I can
just remember his physique, his, you know, being tall and the
sweater and stuff like that (1163).”
6

14

right arm before the jury, revealing a tattoo on his
right arm reading “DA 10453” (431-36).
In his opening statement, petitioner’s trial
attorney attempted to mislead the jury into believing
that Morris possessed the murder weapon at the time
of the murder (42). To correct the false impression
created by petitioner’s trial counsel, the trial court
allowed the prosecution to introduce Morris’ allocution
into evidence because Morris was unavailable to testify
at trial (506-10).
The last witness called by the prosecution was
Matthews, petitioner’s longtime friend and the man
who owned the home where petitioner, Llanos, and
Gilliam regathered after the murder (1252, 1256).
Matthews signed a statement four days after the
murder indicating that, on the day of the murder,
Matthews heard petitioner confess to the shooting, as
petitioner said that men attempted to rob him,
petitioner fought them, after which petitioner
retrieved a gun and shot at the people who tried to rob
him (1254, 1313). Matthews was brought to court
pursuant to a material witness order after he pulled
his child from school and absconded from their home to
avoid testifying against petitioner at trial (1292-93).
On the witness stand, similar to Elyse Hemphill,
Matthews manifested a markedly selective memory, as
he repeatedly looked towards petitioner during his
examination and had to be directed to look at the
written account of the statement he made to the police
(1254-59). Even then, Matthews pled a loss of memory
regarding petitioner confessing that he was the
gunman (1314).

15

Petitioner called one witness on his own behalf:
Nana Owusuafriyie, his lifelong friend. Owusuafriyie
was called as a witness by petitioner to implicate
Morris as the murderer (1444). Owusuafriyie was
quickly exposed as an abject liar and his testimony
transparently
and
unabashedly
fraudulent,
notwithstanding
petitioner’s
effort
to
keep
Owusuafriyie’s criminality concealed from the jury,
including Owusuafriyie’s history of lying to authorities
to cover up his and his associates’ criminal conduct
(1452-56, 1479-80). Owusuafriyie was not merely an
inaccurate witness, but a person of such inherently
deceitful character that the trial judge professed,
outside the presence of the jury, that Owusuafriyie was
the most mendacious witness he had seen in his thirtythree years on the bench (1484). Owusuafriyie’s
testimony was so manifestly deceitful as to require
petitioner’s trial counsel to devote the first ten minutes
of his closing argument attempting to deodorize the
patently fraudulent evidence presented by petitioner,
carefully avoiding any reference to Owusuafriyie’s
duplicitous effort to implicate Morris in the murder
(1499-1503).
The jury undertook a thorough and thoughtful
review of the trial evidence during its deliberations,
asking for significant readback of trial testimony and
reviewing the near entirety of the crime scene evidence
(1720, 1734, 1748, 1759, 1781, Joint App. 364-70). The
jury never asked for readback of Morris’ allocution.
After the verdict was announced petitioner
launched a violent outburst in an effort to physically
prevent the jurors from being individually polled
(1785).

16

It is against this factual backdrop - a carefully
orchestrated fraud to frame Morris for murder
perpetrated by petitioner and carried out over a period
of years that placed an innocent man precariously close
to being wrongfully convicted of a heinous crime - that
this appeal is brought before the Court.
Petitioner’s Statement of Facts is replete with
mischaracterizations of evidence and omissions of
material facts.
As to the former, petitioner
misrepresented that the prosecution changed its
theory of the case regarding how many people were
involved in the fistfight and murder 8, stated that the
While petitioner’s representation on this point is untrue,
to the extent it is not already made clear, then District
Attorney Robert Johnson’s prosecution of Morris was
horrifically botched, a testament to gross professional
incompetence marred by questionable eyewitness
identifications not subjected to any scrutiny, critical
witnesses not interviewed, and a shocking refusal to test
crucial DNA evidence. Moreover, the “statements” that
petitioner relies upon (Pet. Cert. Brief 7) were attributed
to Morris by a jailhouse informant with a significant
criminal history and an expectation of receiving “court
consideration” who had access to news reports of the
shooting and thereafter claimed that Morris, an admitted
stranger to the informant, confided in him that Morris
fired the gun before handing the gun to petitioner who fired
additional gunshots (Pre-Trial Applications 19-20, 25-26,
September 21, 2015).
Not only was the jailhouse
informant’s claim never corroborated, the account the
jailhouse informant attributes to Morris is contradicted by
every eyewitness to the shooting. Amicus made the
jailhouse informant available to petitioner at trial and
petitioner chose not to call him as a witness. It is upon this
demonstrably untrustworthy and inaccurate speciosity
underlying the indefensible prosecution of Morris that
8

17

prosecution tried to hide Gonzalez’ prior identification
of Morris from the jury when, in fact, the prosecution
elicited this testimony and put photographs of the
lineup into evidence, repeatedly represented that a
witness identified Morris as the shooter in a photo
array when no witness ever so identified Morris,
affirmed that a witness testified that Morris was
involved in the fistfight when no witness so testified,
submitted that Morris had a temporary tattoo on his
right arm, and inexplicably claimed that the blue
sweater was moth-eaten (Pet. Merit Brief 6, 8, Pet.
Cert. Brief 6, Pet. Appellate Brief 6, 10, 11, 84, 85, 88,
106). Each of these factual representations is simply
untrue. As to the latter, unable to explain away the
testimony of Gist and petitioner’s grandmother, the
DNA evidence, the absence of tattoos on Morris’ body,
the negative identifications of Morris by Garcia,
Castro, and Baez, the scar on Morris’ face, petitioner’s
directive to Gilliam to frame Morris, Vomvalakis’
testimony and Owusuafriyie’s duplicity, petitioner’s
counsel censored any mention of the evidence
establishing petitioner’s involvement in the fistfight
and the shooting, exculpating Morris as the gunman,
and establishing petitioner’s effort to frame Morris and
perpetrate a fraud on the court from their brief. The
cumulative effect of these misrenderings and
exclusions is to present a distortive and ultimately
inaccurate account of the facts and circumstances
attendant to petitioner’s trial. While petitioner is, of
course, entitled to maintain his interpretation of the
underlying record, the fact that petitioner’s counsel
deemed it necessary to hide wide swaths of facts and
petitioner endorses and upon which petitioner’s claim that
Morris is the gunman is premised.

18

evidence in their submissions to the Court evinces the
eristic foundation upon which petitioner’s appeal is
predicated.
ARGUMENT
I.

MORRIS IS NOT A WITNESS AGAINST
PETITIONER WITHIN THE MEANING OF
THE SIXTH AMENDMENT

The threshold issue attendant to the subject
appeal is whether Morris’ allocution implicates the
Sixth Amendment. If Morris’ allocution is not within
the purview of the Sixth Amendment, the issue
presented is one of evidentiary, not Constitutional,
import.
The Sixth Amendment provides, in pertinent
part, “In all criminal prosecutions, the accused shall
enjoy the right to be. . . confronted with the witnesses
against him. . .” The term “witness” is limited to one
whose statement is offered at trial against a defendant.
Ohio v. Roberts, 448 U.S. 56, 63 (1980)(“If one were to
read this language literally, it would require, on
objection, the exclusion of any statement made by a
declarant not present at trial. But, if thus applied, the
Clause would abrogate virtually every hearsay
exception, a result long rejected as unintended and too
extreme (internal citation omitted).”). The Sixth
Amendment should not serve to exclude out-of-court
statements beyond the reach or scope of the
Confrontation Clause. Giles v. California, 554 U.S.
353, 377-78 (1993)(Thomas, J., concurring); Giles, 554
U.S. at 378 (Alito, J., concurring). For a statement to
implicate the Confrontation Clause, the witness

19

uttering the statement must bear testimony against
the accused. Michigan v. Bryant, 562 U.S. 344, 379
(2011)(Thomas, J. concurring in judgment); Ohio v.
Clark, 675 U.S. 237, 255 (2015) (Thomas, J.,
concurring in judgment).
A critical distinction should be drawn between
testimonial hearsay evidence that implicates a
defendant in a crime and the issue at bar: nonaccusatory evidence required to allay the prejudice
resulting from an attempt to mislead a jury that does
not implicate a defendant in a crime; the former
necessarily triggers the Confrontation Clause,
whereas the latter, because it is not incriminatory and
thus not offered against an accused, does not fall
within the ambit of the Sixth Amendment.
Morris did not, by his allocution, bear witness
against petitioner.
Specifically, Morris did not
implicate petitioner in the commission of a crime or
establish that a crime with which petitioner was
charged was committed. Morris’ allocution solely
addressed Morris’ own criminal conduct - the
possession of an illegal firearm - with which petitioner
was entirely uninvolved.
The non-accusatory nature of Morris’ allocution
is borne out by the trial record, as the prosecution did
not intend to introduce Morris’ allocution at the outset
of trial because, at that point in time, Morris’
allocution was intrinsically immaterial to the jury’s
determination of the charges against petitioner. It was
only after petitioner’s trial counsel sought to mislead
the jury that Morris’ allocution became material to the
trial proceedings and then only to mitigate the

20

prejudice resulting from petitioner’s trial counsel’s
stratagem, not to bear evidence against petitioner
relative to the murder.
The abuses that the Court has identified as
prompting the adoption of the Confrontation Clause
involved “out-of-court statements having the primary
purpose of accusing a targeted individual of engaging
in criminal conduct.” Williams v. Illinois, 567 U.S. 50,
82 (2012). Because Morris’ allocution did not accuse
petitioner of engaging in criminal conduct, on an
elemental level and based upon the plain language of
the Confrontation Clause, Morris was not a witness
against petitioner within the meaning of the Sixth
Amendment and the introduction of Morris’ allocution
into evidence does not implicate the Sixth Amendment.
II.

MORRIS’
ALLOCUTION
IS
NOT
TESTIMONIAL WITHIN THE MEANING OF
THE CONFRONTATION CLAUSE

Petitioner’s appeal is premised on the
misconception that Crawford v. Washington, 541 U.S.
36 (2003), held all plea allocutions to be “plainly
testimonial.” Pet. Cert. Brief 19. This is incorrect.
Instead, Crawford reaffirmed the long-held principle
that one specific and discrete type of plea allocution - a
plea allocution in which one member of a conspiracy
implicates another member of a conspiracy - is
testimonial; Crawford did not hold that all plea
allocutions are categorically testimonial within the
meaning of the Sixth Amendment. Crawford, 541 U.S.
at 64. Each decision cited in the relevant section of
Crawford - United States v. Aguilar, 295 F.3d 1018
(C.A.9 2002), United States v. Centracchio, 265 F.3d

21

518 (C.A.7 2001), United States v. Dolah, 245 F.3d 98
(C.A.2 2001), United States v. Petrillo, 237 F.3d 119
(C.A.2 2000), and United States v. Moskowitz, 215 F.3d
265 (C.A.2 2000) - addresses plea allocutions made by
one member of a conspiracy subsequently used to prove
the element of an offense, that being the existence of a
conspiracy, against another alleged member of that
conspiracy. Crawford, 541 U.S. at 64. Similarly, Kirby
v. United States, 174 U.S. 47 (1899), the other decision
cited by petitioner in support of his assertion that all
plea allocutions are plainly testimonial, held
unconstitutional the introduction of plea allocutions
made by three embezzlers 9 as conclusive evidence
against the trial defendant to establish an element of
the offense with which the defendant was charged.
Contrary to petitioner’s contention, the Court
has not enunciated a blanket holding declaring that all
plea allocutions are testimonial within the meaning of
the Sixth Amendment. Crawford deliberately elected
not to “spell out a comprehensive definition of
‘testimonial’”, leaving that to future decisions.
Crawford, 541 U.S. at 68. Davis v. Washington, 547
U.S. 813, 822 (2006), set forth the primary purpose test
to determine if out-of-court statements are testimonial
within the meaning of the Confrontation Clause,
defining
testimonial
statements
as
solemn
declarations or affirmations made for the purpose of
establishing or proving some fact potentially relevant
to later criminal prosecution.

The relationship between Kirby and the three embezzlers
fits the classic definition of a hub-and-spoke conspiracy. See
United States v. Newton, 326 F.3d 253, 255, n.2 (1st Cir. 2003).

9

22

Thus, the mere fact that a sworn or affirmed
statement may be considered testimonial in a general
sense does not mean that such a statement, viewed
through the lens of the Crawford line of cases and by
application of the primary purpose test, fits the strict
definition of testimonial within the meaning of the
Confrontation Clause.
Davis, 547 U.S. at 820, addressed statements
made by domestic violence victims to a 911 operator
and in a battery affidavit. Bryant, 626 U.S. at 359-379,
expounded on the primary purpose test, applying it to
police interrogations made in response to on-going
emergencies. Williams, 567 U.S. at 79, applied the
primary purpose test to DNA reports. Clark, 675 U.S.
at 237, applied the primary purpose test to statements
made by children to pre-school teachers.
The Court has not applied the primary purpose
test to plea allocutions. More specifically, the primary
purpose test has not been applied to plea allocutions
not involving the guilty plea of a member of a criminal
conspiracy establishing the existence of criminal
conspiracy. By application of the primary purpose test,
Morris’ allocution neither implicates nor violates the
Sixth Amendment because it was not made for the
purpose of establishing or proving a fact at a later
criminal prosecution. Davis, 547 U.S. at 822 (2006). 10
The archetypal instance in which the
Confrontation Clause restricts the introduction of outof-court statements is that in which a state actor is
The New York trial and appellate courts did not apply the
primary purpose test to Morris’ allocution. Pet. App. 1A - 28A.

10

23

involved in a formal, out-of-court interrogation of a
witness to obtain evidence for trial. Bryant, 626 U.S.
at 358. It is this critical factor, or, more accurately, the
absence thereof, that renders Morris’ allocution nontestimonial: the primary purpose of Morris’ allocution
was not to develop evidence for trial. Similar to Rule
11(b)(3), New York State requires that a court elicit a
recitation of facts from a criminal defendant wishing to
enter a guilty plea to ensure that the plea is knowing
and voluntary. People v. Lopez, 71 N.Y.2d 662, 666
(1988); People v. Serrano, 15 N.Y.2d 304, 309-10
(1965). The sole, and thus primary, purpose of Morris’
allocution was to ensure that Morris’ plea was knowing
and voluntary to allow the court determine if it should
be accepted.
Morris’ allocution occurred on May 29, 2008, at
the end of the Morris exoneration stage of the
investigation into the death of David Pacheco, Jr.,
while the case was handled by the second prosecutor
and before the November 2010 date on which Gilliam
entered into his cooperation agreement, before the
April 2011 issuance of the search warrant to compel
petitioner to provide a DNA sample, before evidence
against petitioner was presented to a grand jury in the
winter of 2013, and before the April 24, 2013 arrest of
petitioner. Morris’ allocution was not undertaken as a
means to develop trial evidence against petitioner; had
it been so, Morris would have been required to
cooperate against petitioner as a condition of his plea.
Developing trial evidence as against petitioner was not
a nascent thought at the time of Morris’ allocution and
would not begin until years later.
The transcript to Morris’ allocution further

24

establishes that the primary purpose of Morris’
allocution was not to develop trial evidence against
petitioner, as neither the court nor the prosecutor
asked Morris a single question regarding petitioner or
the murder of David Pacheco, Jr., Morris did not
mention petitioner by name, Morris did not allude to
petitioner or petitioner’s conduct, and Morris did not
plead guilty to a crime involving petitioner. Morris
pled guilty to a crime that he, and he alone, committed,
and this crime was separate and distinct from the
crimes with which petitioner was ultimately charged.
Lastly on this point, because Morris’ allocution
had no bearing on petitioner’s commission of the crime
with which petitioner was charged, amicus did not
intend to introduce Morris’ allocution into evidence at
the outset of petitioner’s trial, as demonstrated by the
trial record. It was only after petitioner’s trial counsel
tried to mislead the jury that the prosecution sought to
introduce Morris’ allocution as a means to mitigate the
resultant prejudice. A review of the trial record further
reveals that the prosecution never argued or otherwise
used Morris’ allocution to implicate petitioner in the
murder during the entirety of the trial.
It bears noting that petitioner’s trial counsel
never objected to the introduction of Morris’ allocution
on the grounds that it was testimonial (his objection
was based solely on the argument that Morris’
allocution was being used to incriminate his client
which, as demonstrated by the trial record, it was not)
and abandoned further argument relative to the Sixth
Amendment, instead focusing thereafter on whether
Morris’ allocution met the requirements for a
declaration against the penal interest as an exception

25

to the hearsay rule under New York State evidentiary
law (511, 512-13, 896-902, 904, 907-08, 909-10, 916,
917-18).
“The basic purpose of the Confrontation Clause
was to ‘targe[t]’ the sort of ‘abuses’ exemplified at the
notorious treason trial of Sir Walter Raleigh,” Bryant,
562 U.S. at 357-58, specifically the introduction into
evidence of Marian depositions that expressly denied
defendants’ examination of their accusers. Crawford,
541 U.S. at 43-44.
Morris’ allocution bears no
similarity to the admission into evidence of civil-law
examinations or the type of evidence used against
Raleigh as Morris’ allocution was not created to
disallow petitioner’s confrontation of Morris or to
incriminate petitioner.
To the contrary, the
prosecution would have much preferred to call Morris
as a witness at petitioner’s trial to allow the trial jury
to hear the same forthright and compelling statement
Morris gave when, of his own volition, he walked into
the News 12 station and proclaimed his innocence
(332-35, 408, Trial Exhibit 101).
A review of the circumstances under which
Morris’ allocution was undertaken, the substance of
Morris’ allocution, and the manner in which Morris’
allocution was used by the prosecution at trial, by
application of the primary purpose test, establishes
that Morris’ allocution does not constitute testimonial
evidence. See Davis, 547 U.S. at 822. As such, the
admission of Morris’ allocution is of evidentiary, not
Constitutional, import, and was altogether just,
proper, and compliant with the Sixth Amendment.

26

III.

MORRIS’ ALLOCUTION WAS PROPERLY
RECEIVED IN EVIDENCE EVEN IF
DEEMED TESTIMONIAL

Characterizing
the
antecedents
that
precipitated the admission of Morris’ allocution into
evidence as based solely upon opening the door is
reductive, failing to give due weight to the
demonstrated and significant misconduct by which
petitioner sought to undermine the integrity of both
the investigation into the death of David Pacheco, Jr.,
and petitioner’s trial. The propriety of the admission
of Morris’ allocution into evidence should thus not be
considered in a vacuum, divorced from the entirety of
the trial record and facts underlying this matter.
Forfeiture by misconduct is a recognized
exception to the Confrontation Clause. Crawford, 541
U.S. at 54. The doctrine of forfeiture by misconduct is
grounded in “the ability of courts to protect the
integrity of their proceedings.” Davis, 547 U.S. at 834.
The Court first addressed the forfeiture by wrongdoing
doctrine as applicable to the Confrontation Clause in
Reynolds v. United States, 98 U.S. 145, 155 (1879),
referencing Lord Morley’s Case, (6 State Trials, 770),
and stating that:
“The rule has its foundation in the maxim that
no one shall be permitted to take advantage of
his own wrong; and, consequently, if there has
not been, in legal contemplation, a wrong
committed, the way has not been opened for the
introduction of testimony. We are content with
this long-established usage which, so far as we
have been able to tell, has rarely been departed

27

from. It is the outgrowth of a maxim based upon
the principle of common honesty, and, if
properly administered, can harm no one.”
Giles, addressing the doctrine of forfeiture by
wrongdoing in the fact-specific context of a domestic
violence prosecution, held that forfeiture by
wrongdoing was a recognized common law exception to
the right to confrontation “at the time of the founding.”
Giles, 554 U.S. at 358-60.
The matter at bar presents a scenario different
than that presented in Giles and to which we are more
accustomed seeing the doctrine of forfeiture by
wrongdoing applied, as petitioner did not threaten or
physically harm Morris; instead, petitioner initiated a
conspiracy to falsely accuse Morris of murder.
The foundational ethical stricture against false
accusations is found in the Ninth Commandment:
"Thou shalt not bear false witness against thy
neighbor." Exodus 20:16. Bearing false witness
against another person with the intent that the
innocent person be found guilty and sentenced to death
was punishable by death at English common law. 1
Britton 34-35 (Nichols ed. 1865); John C. Hogan,
Murder by Perjury, 30 Fordham L. Rev. 285 (1961). In
The King v. Macdaniel and Others, (1 Leach 44, 168
Eng. Rep. 124 (P.C. 1754)), Mary Jones gave false
testimony against an innocent person resulting in his
conviction and execution.
Jones was tried and
convicted for her maliciously false accusation as
against Joshua Kidden. Id. Notably, it was not just
Jones who was found guilty based upon this false
accusation; Macdaniel and Berry, who did not give

28

false testimony, but conspired with Jones in framing
Kidden, were also convicted of this crime. Id.
The Macdaniel, Berry and Jones trial, widely
known during the framers’ lifetimes, reflects the state
of English common law in the latter half of the 18th
century, at the time of the ratification of the Bill of
Rights and in the wake of the statutory and judicial
reforms that followed the Raleigh trial. See Crawford,
541 U.S. at 44-45; Joseph Cox, A Faithful Narrative of
the Most Wicked and Inhuman Transactions of That
Bloody-Minded Gang of Thief-Takers, Macdaniel,
Berry, Salmon, Eagan, Alias Gahagan: As Also of That
Notorious Accomplice of Theirs, Mary Jones (1756).
Kidden’s unconfronted hearsay statements were
properly received in evidence at the trial of Mcdaniel,
Berry, and Jones: Headborough Thomas Cooper
testified that, “He (Kidden) said he never committed a
robbery in his life, nor never wrong'd man, woman or
child in his life. He cried almost all the way he went
along to the prison, and spoke very sorrowful,” and
Clerk James Warriner testified that, “The poor fellow
(Kidden) cried terribly, talk'd much of his innocency,
and protested to it all along.” Old Bailey Proceedings
Online (www.oldbaileyonline.org, version 8.0, 16
August 2021), June 1756, trial of Stephen Macdaniel
John Berry Mary Jones (t17560603-16). 11
The King v. Macdaniel and Others establishes
that petitioner’s demonstrated malfeasance falls
Kidden’s claims of innocence, voiced as soon as he was
charged with robbery and repeatedly thereafter, long before
he was sentenced to death, cannot be characterized as dying
declarations.
11

29

squarely within the doctrine of wrongdoing as an
exception to the right to confrontation as it existed in
English common law at the time the Bill of Rights was
adopted. If, as Crawford requires, the rules of evidence
at the time of the founding govern the application of
the Confrontation Clause, then not only is Morris’
allocution properly admissible, but his interview with
News 12, in which he proclaimed his innocence with
the same sincerity as Kidden, could have been played
for the jury, unmuted.
Petitioner’s conduct was not a quiescent
abstraction; petitioner effectuated a fully actualized
and operational conspiracy to frame Morris for
murder, in furtherance of which petitioner took
concrete action immediately after finding out that
Matthews revealed petitioner’s confession to the police:
lying to Gilliam regarding Morris’ conduct to impel
Gilliam to participate in the conspiracy, giving specific
instructions to Gilliam as to how to falsely accuse
Morris, arranging for the delivery of Gilliam from
North Carolina to the prosecutor’s office for the sole
purpose of implicating Morris in the murder, and
hiring a lawyer to give petitioner’s scheme the
appearance of creditability.
Significantly, the
circularity affecting the evidence in Giles is not present
in the instant matter, as petitioner’s attempt to frame
Morris for murder is a separate and distinct act from
the crime with which petitioner was charged and the
prosecution presented independent, foundational
evidence establishing the wrongdoing underlying
petitioner’s forfeiture. Although petitioner’s conduct
did not, by itself, cause Morris’ unavailability at trial,
petitioner’s misconduct played a significant role in the
wrongful prosecution of Morris which ultimately

30

resulted in Morris’ unavailability. 12
Petitioner’s
malfeasance was a clear scheme to insulate himself
from prosecution as it was only after petitioner found
out that Matthews disclosed petitioner’s role as the
gunman to the police (“Darrel woke me up in the
middle of the night like you listen Vernon told the
police what happened. We got to get out of here
(1006)”), that petitioner lied to Gilliam (“Nick is telling
the police that you did it, you did the shooting (1008)”),
manipulating Gilliam thereby orchestrating his false
accusation of Morris (“You go to go there in and tell
them that, nah, you ain’t do it, Nick is the shooter
(1008)”) to render Morris unavailable to provide a
truthful account of petitioner’s role in the murder.
It is in this context - the doctrine of forfeiture by
wrongdoing derived from the equitable maxim that no
one should be permitted to take advantage of their own
wrong as recognized by Reynolds, considered in light of
Crawford and Giles - that the issue at bar presents
itself to the Court. At a time when the criminal justice
system is casting a more critical eye at the integrity of
past prosecutions by which post-exoneration cases
similar to the instant matter will likely become more
common, amicus moves the Court to recalibrate and
recognize that the doctrine of forfeiture by wrongdoing
still encompasses falsely accusing another of murder.
See Giles, 554 U.S. at 379 (Souter, J., concurring).
“It was, and is, reasonable to place the risk of
Similarly, the conduct of Mcdaniel, Berry and Jones did not
render Kidden unavailable at their trial, but, instead, was a
precursor to the government action that ultimately rendered
Kidden unavailable.
12

31

untruth in an unconfronted, out-of-court-statement on
a defendant who meant to preclude the testing that
confrontation provides.” Giles, 554 U.S. at 379 (Souter,
J., concurring). Petitioner went to extraordinary
lengths to prevent Morris from providing evidence
against petitioner that would have revealed
petitioner’s role in the murder and to undermine the
integrity of petitioner’s trial. Petitioner engaged in a
campaign of wrongful conduct encompassing framing
Morris for murder, witness tampering and
intimidation, presenting fraudulent evidence at trial,
beginning days after the murder and continuing
through the end of his trial, meant to undermine the
investigation into the death of David Pacheco, Jr., and
subvert the integrity of petitioner’s trial. As such, even
if Morris’ allocution is deemed to be testimonial
evidence against petitioner within the meaning of the
Sixth Amendment, it was eminently reasonable and
proper to place Morris’ allocution before the trial jury
in order to protect the integrity of petitioner’s trial
from
petitioner’s demonstrated
campaign
of
malfeasance pursuant to the maxim that no one shall
be permitted to take advantage of his own wrong and
based upon the doctrine of forfeiture by wrongdoing.
See Davis, 547 U.S. at 834.
IV.

THE ADMISSION OF MORRIS’ ALLOCUTION
INTO EVIDENCE DID NOT AFFECT
PETITIONER’S ABILITY TO PRESENT A
DEFENSE OR THE OUTCOME OF THE TRIAL

Petitioner’s ability to present a defense
predicated on placing blame for the murder on Morris
was not diminished or limited by the admission into

32

evidence of Morris’ allocution as petitioner had ample
evidence at his disposal by which he was able to pin
the murder on Morris, that being the three eyewitness
identifications of Morris plus the uncontested fact that
the police initially arrested and charged Morris for the
murder. Petitioner’s trial attorney had every right to
make arguments to the jury, even if those arguments
are untrue, but an accused’s right to confront
witnesses should not be transformed into a vehicle that
allows parties to mislead juries with impunity vested
with the knowledge that otherwise reliable and
accurate evidence that would correct such a false
statement will be barred from coming before the jury.
Petitioner’s trial counsel was fully aware that making
a false statement implying that Morris possessed a
9mm firearm would open the door to the admission of
evidence establishing that Morris did not possess a
9mm firearm and petitioner’s trial counsel made the
strategic decision to do so nonetheless. The issue
before the Court is not one of purported conflict
between the Confrontation Clause and the opening the
door doctrine; the issue before the Court is the
essential objective of a trial: “The basic purpose of a
trial is the determination of truth.” Tehan v. U.S. ex
rel. Shott, 382 U.S. 406, 416 (1966). To that end,
amicus humbly requests that the decision the Court
issues in the case at bar give full force and effect to the
Sixth Amendment but not allow a party to benefit from
its own wrong by preventing the admission of accurate
evidence to mitigate the prejudice resulting from a
party’s tactical decision to attempt to mislead a jury.
The trial record further establishes that Morris’
allocution played no role in the jury’s verdict as the
jury conducted a thorough and methodical review of

33

the trial evidence before rendering its verdict and did
not request readback of Morris’ allocution, as
demonstrated by its notes to the court during its
deliberations (1720, 1734, 1748, 1759, 1781; Joint App.
364-70). See Chapman v. California, 386 U.S. 18, 23
(1967); Delaware v. Van Arsdall, 475 U.S. 673, 684
(1986).
CONCLUSION
Morris’ plea allocution, by its non-accusatory
and non-testimonial nature, did not implicate or
violate petitioner’s rights under the Sixth Amendment
and its introduction into evidence was entirely lawful
and proper. Accordingly, petitioner’s appeal should be
denied in all respects and the conviction of Darrell
Hemphill for the murder of David Pacheco, Jr. should
stand.
Respectfully submitted,
Adam Oustatcher
55 Broadway
Suite 202
New York, New York 10006
(917) 881-9307
aoustatcher@gmail.com
Amicus Curiae
Dated: August 16, 2021

